Federal Public Defender
Central District of Illinois
The Honorable Scott. S. Harris, Clerk
Supreme Court of the United States
1 First Street, N.E.
Washington D.C. 20543
January 19, 2021
Re: Matthew Jones v. United States, No. 20-6129
Dear Mr. Harris:
I represent Petitioner Matthew Jones in the above-captioned case, which is currently pending
before this Court on a petition for a writ of certiorari. The respondent’s brief was filed on January 15,
2021. Petitioner’s reply is filed on January 19, 2021, contemporaneous with this letter. Pursuant to
Rule 15.5, Petitioner expressly waives the 14-day waiting period for distribution of the case to the Court.
I respectfully request that the Clerk distribute the case on the next distribution date for in forma pauperis
cases, which I believe to be January 21, 2021.
Thank you for your time, and please have a good day.
Sincerely,
Johanes Maliza
cc:

Solicitor General of the United States
United States Department of Justice
950 Pennsylvania Ave. N.W.
Room 5616
Washington, D.C. 20530-001
SupremeCtBriefs@usdoj.gov

FEDERAL
PUBLIC DEFENDER
Thomas W. Patton
SENIOR LITIGATOR
George Taseff

ASSISTANT DEFENDERS
Robert Alvarado
Karl Bryning
Johanna Christiansen
Peter Henderson
Daniel Hillis
Johanes Maliza
Jennifer Hart
Elisabeth Pollock
Rosanna Brown
Colleen Ramais
Website: http://ilc.fd.org

OFFICES
401 Main St., Ste 1500
Peoria, IL 61602
(309) 671-7891
(309) 671-7898 (fax)

600 E. Adams St., 3rd Fl.
Springfield, IL 62701
(217) 492-5070
(217) 492-5077 (fax)
300 W. Main Street
Urbana, IL 61801
(217) 373-0666
(217) 373-0667 (fax)

